                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              ETA’S CONTRACT WITH TCE DIGITAL
                                              SOLUTIONS VIOLATED PROVISIONS OF THE
                                              SMALL BUSINESS ACT SECTION 8(A)




                                                                           Date:September 28, 2007
                                                                  Report Number: 05-07-003-03-390
                                                           U.S. Department of Labor
BRIEFLY…                                                   Office of Inspector General
                                                           Office of Audit
Highlights of Report Number 05-07-003-03-390,
ETA’s Contract with TCE Digital Solutions Violated         WHAT OIG FOUND
Provisions of the Small Business Act Section 8(a), to      We found that the allegations were unsubstantiated, as
the Assistant Secretary for Employment and Training,       summarized below:
dated September 2007.                                         1. We found no evidence that ETA’s Assistant
                                                                  Secretary directed the use of Maher and Maher
WHY READ THE REPORT                                               as a subcontractor on a task order to support
The Office of Inspector General (OIG) conducted a                 the “Workforce3 One” project.
performance audit in response to a complaint received         2. ETA did not violate the FAR by approving a
through the OIG Complaint Analysis Office regarding               task order in which substantially all of the cost
ETA. The complaint alleged improprieties in awarding              and related work was passed through the 8(a)
and managing a specific task order under Contract No.             contractor to a subcontractor. While Federal
DOL J051A20206, a Small Business Act Section 8(a)                 regulations and the FAR require an 8(a)
contract to The Creative Eye, doing business as TCE               contractor to complete at least 50 percent of the
Digital Solutions (TCE), which was awarded by ETA’s               work on a contract with its own employees, this
Division of Contract Services.                                    requirement does not apply to each individual
                                                                  task order within the contract.
The Small Business Administration (SBA) has a
partnership agreement with DOL to establish basic          However, the contracting officer recommended TCE
procedures for expediting the award of contracts and       use Maher and Maher as a subcontractor to perform the
places the responsibility for compliance with DOL. ETA     Workforce3 One task order. This action violated sound
requested approval from SBA for a potential 8(a)           procurement practices and created the appearance of
contract with TCE. SBA authorized ETA to negotiate         preferential treatment toward Maher and Maher.
and contract with TCE directly, as specified in the
partnership agreement.        On June 30, 2005, ETA        This report incorporates our earlier Alert Report
awarded TCE an indefinite-quantity type contract to        (No. 05-06-005-03-390) detailing three violations of
perform various tasks orders within ETA.           The     either SBA regulations or contract provisions.
contracting officer recommended TCE subcontract with       Subsequent audit work disclosed that TCE expected to
Maher and Maher to fulfill a request to sustain the        perform only 32 percent of the cost of the contract
Workforce3 One Project then being performed by Maher       incurred for personnel with its own employees, although
and Maher under another agreement. TCE agreed to           SBA regulations require that 8(a) contractors perform
accept a task order that would be subcontracted to         50 percent. In addition, SBA regulations require this
Maher and Maher.                                           work    performance      requirement      be   calculated
                                                           semiannually.
WHY OIG CONDUCTED THE AUDIT
The OIG conducted the audit to determine the merits of     WHAT OIG RECOMMENDED
two allegations:                                           We recommended that ETA’s Assistant Secretary:
    1. The Assistant Secretary for Employment and              1. ensure that all contracting personnel fully
        Training inappropriately directed the use of a            comply with, and promote, the spirit and letter
        specific company, Maher and Maher (a small                of the Federal procurement and ethics laws and
        business firm that is not 8(a) qualified), as a           regulations, including, but not limited to, acting
        subcontractor on a task order to support the              impartially and abstaining from the appearance
        “Workforce3 One” project, and                             of giving preferential treatment to any
    2. ETA violated the Federal Acquisition Regulation            organization or individual;
        (FAR) by approving a task order in which               2. establish procedures for contracting officers to
        substantially all of the cost (and related work)          monitor the percentage of work contractors
        was passed through the 8(a) contractor to the             perform with their own employees before
        subcontractor.                                            issuing new task orders or modifying existing
                                                                  contracts for new work; and
Our scope included only one contract with TCE for the          3. establish procedures for semiannually
period June 30, 2005, through June 30, 2006.                      monitoring actual compliance with the
                                                                  50 percent work performance requirement.
READ THE FULL REPORT
To view the report, including the scope, methodology,      HOW THE AGENCY RESPONDED
and full agency response, go to:                           ETA agreed with all our recommendations and provided
http://www.oig.dol.gov/public/reports/oa/2007/05-07-       a plan for corrective action.
003-03-390.pdf
                                                               U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 4
          Did the Assistant Secretary for Employment and Training Inappropriately
             Direct the Use of a Specific Company (Maher and Maher) as a
             Subcontractor on a Task Order to Support the “Workforce3 One”
             Project? ........................................................................................................... 5
          Did ETA Violate the FAR by Approving a Task Order in Which
             Substantially All of the Cost (and Related Work) was Passed Through
             the 8(a) Contractor to the Subcontractor? ....................................................... 7
          Other Matters That Came to OIG’s Attention........................................................ 8

Exhibits ........................................................................................................................ 12
          Exhibit 1. Summary of Task Order Provisions .................................................... 13
          Exhibit 2. Percentage of Cost of the Contract Incurred for Personnel
             Actually Performed by TCE on each Task Order – Per Invoice Billings ........ 14
          Exhibit 3. Percentage of Cost of the Contract Incurred for Personnel to be
             Performed by TCE – Per Task Orders .......................................................... 15

Appendices.................................................................................................................. 16
          Appendix A. Background .................................................................................... 17
          Appendix B. Objective, Scope, Methodology, and Criteria ................................. 19
          Appendix C. Acronyms and Abbreviations ......................................................... 21
          Appendix D. Agency Response to Draft Report.................................................. 22




                                                                               ETA’s Contract with TCE Digital Solutions
                                                                                          Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit in response to a
complaint received through the OIG Complaint Analysis Office regarding ETA. The
complaint alleged improprieties in awarding and managing a specific task order under
Contract No. DOL J051A20206, a Small Business Act Section 8(a) contract to The
Creative Eye, doing business as TCE Digital Solutions (TCE), which was awarded by
ETA’s Division of Contract Services. Specifically, the allegations were that:

   1. The Assistant Secretary for Employment and Training inappropriately directed
      the use of a specific company, Maher and Maher (a small business firm that is
      not 8(a) qualified), as a subcontractor on a task order to support the “Workforce3
      One” project.

   2. ETA violated the Federal Acquisition Regulation (FAR) by approving a task order
      in which substantially all of the cost (and related work) was passed through the
      8(a) contractor to the subcontractor.

Our objective was to determine the merits of the two allegations.

Results

We found that both allegations were unsubstantiated, as summarized below:

   1. We found no evidence that ETA’s Assistant Secretary directed the use of Maher
      and Maher as a subcontractor on a task order to support the “Workforce3 One”
      project.

   2. ETA did not violate the FAR by approving a task order in which substantially all of
      the cost and related work was passed through the 8(a) contractor to a
      subcontractor. While Federal regulations and the FAR require an 8(a) contractor
      to complete at least 50 percent of the work on a contract with its own employees,
      this requirement does not apply to each individual task order within the contract.

However, in examining information related to this overall contract, we determined that
ETA violated provisions of the 8(a) BD program not specifically alleged in the complaint.
ETA’s contracting officer recommended TCE, an 8(a) contractor with an existing ETA
contract, use Maher and Maher as a subcontractor to perform the Workforce3 One task
order. This action violated sound procurement practices and created the appearance of
preferential treatment toward Maher and Maher. Contracting personnel should comply
with the spirit and letter of Federal procurement and ethics laws and regulations.




                                                       ETA’s Contract with TCE Digital Solutions
                                            1                     Report No. 05-07-003-03-390
                                           U.S. Department of Labor – Office of Inspector General


Other Matters That Came to OIG’s Attention

Early in our audit of the hotline allegations, we found three violations of either Small
Business Administration (SBA) regulations or contract provisions that we communicated
in an Alert Report (Number 05-06-005-03-390), dated June 19, 2006. We
recommended, and the Assistant Secretary for Employment and Training agreed, that
additional pending contract modifications and the option year of the contract not be
exercised. Subsequent audit work resulted in additional recommendations concerning
the work performance requirement of TCE’s contract, which are included in this report.

Additionally, SBA regulations require that 8(a) contractors perform 50 percent of the
cost of the contract incurred for personnel with its own employees. Through
February 28, 2006, TCE had performed only 25 percent of the work with its own staff.
According to the contracting officer, the 50 percent requirement is over the life of the
contract, not to be determined at a specific point in time. The contracting officer’s
interpretation of this requirement is incorrect. SBA regulations also require the work
performance requirement be calculated semiannually.

Overall, TCE expected to perform only 32 percent of the cost of the contract incurred for
personnel with its own employees. The contracting officer should have been monitoring
what percentage of the work TCE planned to perform before issuing each task order, as
well as monitoring compliance with the 50 percent work performance requirement
semiannually. ETA’s lack of compliance with these regulations could result in ETA, or
all of DOL, losing privileges associated with the SBA/DOL Partnership Agreement. This
would slow the procurement process when contracting with 8(a) concerns. Further,
failure to give TCE the majority of the work in this contract is contrary to the purpose of
the 8(a) Business Development (BD) program, since there was little effort to develop
TCE with work experience to compete in future ETA procurements.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. ensure that all contracting personnel fully comply with, and promote, the spirit
      and letter of the Federal procurement and ethics laws and regulations, including,
      but not limited to, acting impartially and abstaining from the appearance of giving
      preferential treatment to any organization or individual;

   2. establish procedures for contracting officers to monitor the percentage of work
      contractors perform with their own employees before issuing new task orders or
      modifying existing contracts for new work; and

   3. establish procedures for semiannually monitoring actual compliance with the
      50 percent work performance requirement.




                                                        ETA’s Contract with TCE Digital Solutions
                                             2                     Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


Auditee Response

ETA agreed with all our recommendations and provided a plan for corrective action. See
Appendix D for the agency’s complete response to our draft report.

OIG Conclusion

We consider Recommendations 1, 2, and 3 resolved. These recommendations will be
closed after ETA’s planned corrective action has been implemented and the OIG has
received evidence of the implementation.




                                                       ETA’s Contract with TCE Digital Solutions
                                            3                     Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




                        Assistant Inspector General’s Report


Emily Stover DeRocco
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Inspector General (OIG) conducted a performance audit in response to a
complaint received through the OIG Complaint Analysis Office regarding ETA. The
complaint alleged improprieties in awarding and managing a specific task order under
Contract No. DOL J051A20206, a Small Business Act Section 8(a) contract to The
Creative Eye, doing business as TCE Digital Solutions (TCE), which was awarded by
ETA’s Division of Contract Services. Specifically, the allegations were that:

   1. The Assistant Secretary for Employment and Training inappropriately directed
      the use of a specific company, Maher and Maher (a small business firm that is
      not 8(a) qualified), as a subcontractor on a task order to support the “Workforce3
      One” project.

   2. ETA violated the Federal Acquisition Regulation (FAR) by approving a task order
      in which substantially all of the cost (and related work) was passed through the
      8(a) contractor to the subcontractor.

The United States Small Business Administration (SBA) operates the 8(a) Business
Development (BD) program to assist eligible small disadvantaged business concerns to
compete in the American economy through business development. SBA has a
partnership agreement with DOL to establish basic procedures for expediting the award
requirements of the 8(a) BD program. Within ETA, the Division of Contract Services
has been delegated responsibility for managing ETA’s contracting activity. Additional
background information is contained in Appendix A.

We concluded that both of the allegations were unsubstantiated. However, in
examining information related to this overall contract, we determined that ETA violated
provisions of the 8(a) BD program not specifically alleged in the complaint. ETA’s
contracting officer recommended TCE, an 8(a) contractor with an existing ETA contract,
use Maher and Maher as a subcontractor to perform the Workforce3 One task order.
This action created the appearance of favoritism and left the Agency vulnerable to
accusations that Maher and Maher received preferential treatment. Contracting

                                                          ETA’s Contract with TCE Digital Solutions
                                            4                        Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


personnel should comply with the spirit and letter of Federal procurement and ethics
laws and regulations.

Although, we reported preliminary information about violations of the 8(a) BD program
and made a recommendation aimed at preventing further violations in an Alert Report
(Number 05-06-005-03-390) issued to DOL’s Deputy Secretary on June 19, 2006, this
report contains additional information and recommendations related to those Alert
Report issues. Specifically, TCE had performed only 25 percent of the work with its
own staff. This is contrary to SBA regulations at 13 CFR 125.6(a) (1), which requires an
8(a) contractor to perform 50 percent of the cost of the contract incurred for personnel
with its own employees.

We conducted the audit in accordance with Government Auditing Standards for
Performance Audits. Our audit objective, scope, methodology, and criteria are detailed
in Appendix B.

Objective 1 – Did the Assistant Secretary for Employment and Training
Inappropriately Direct the Use of a Specific Company (Maher and Maher) as a
Subcontractor on a Task Order to Support the “Workforce3 One” Project?
Fill in Finding for TOC here



Results and Finding – We found no evidence that ETA’s Assistant Secretary directed
the use of Maher and Maher as a subcontractor on a task order to support the
“Workforce3 One” project. We did find that ETA’s contracting officer recommended
TCE, an 8(a) contractor with an existing ETA contract, use Maher and Maher as a
subcontractor to perform this task order. This action violated sound procurement
practices and created the appearance of preferential treatment toward Maher and
Maher. Contracting personnel should comply with the spirit and letter of Federal
procurement and ethics laws and regulations.

In June 2003, ETA and the Center for Employment Security Research (CESR) entered
into a 2-year grant. In January 2005, the grant was amended to a cooperative
agreement. The amended Statement of Work contained in the cooperative agreement
gave CESR primary responsibility for the initial development and ongoing maintenance
of an integrated web space which became known as the Workforce3 One Integrated
Web Space. Maher and Maher started working on the Workforce3 One project in 2005
as a subcontractor to CESR.

In anticipation of the expiration of the cooperative agreement on June 30, 2005, the
ETA Office of Workforce Investment (OWI) Contracting Officer’s Technical
Representative (COTR) contacted the contracting officer with a request to continue the
Workforce3 One project using Maher and Maher. The contracting officer recommended
initiating a subcontract arrangement with Maher and Maher using an existing 8(a)
contract with TCE. The contracting officer arranged a meeting for the purpose of
introducing Maher and Maher to TCE, the 8(a) contractor. The contracting officer
thought this was a good practice because it would develop the 8(a) contractor and
expand the pool of qualified small business concerns for ETA, one of the goals of the

                                                       ETA’s Contract with TCE Digital Solutions
                                           5                      Report No. 05-07-003-03-390
                                           U.S. Department of Labor – Office of Inspector General


8(a) BD program. TCE agreed to accept a task order that would be subcontracted to
Maher and Maher for the purpose of the Workforce3 One Project.

We found no evidence that the Assistant Secretary directed the continuance of the
Workforce3 One Project using Maher and Maher. Therefore, we found the
complainant’s allegation to be without merit.

However, the actions of ETA’s contracting officer in assisting the Agency’s desire to
continue ongoing work with the same provider and recommending that TCE subcontract
with Maher and Maher, though not expressly prohibited by any Federal statute or
regulation, violates sound procurement practices. We believe that it is commonly
accepted in the procurement community that Government procurement staff should not
direct or recommend that a contractor subcontract with a particular subcontractor. In
addition, the contracting officer’s actions gave the appearance of preferential treatment
toward Maher and Maher. FAR 3.101-1 states:

       Government business shall be conducted in a manner above reproach
       and, except as authorized by statute or regulation, with complete
       impartiality and with preferential treatment for none.

The Department of Labor Acquisition Regulations, Subpart 2903.101-1 refers the reader
to the Standards of Ethical Conduct for Employees of the Executive Branch, 5 CFR
Part 2635. Subpart 2635.101 (b)(8) is applicable to the actions of the contracting officer
and states:

       Employees shall act impartially and not give preferential treatment to any
       private organization or individual.

In recommending that TCE subcontract with Maher and Maher, the contracting officer
created the appearance of favoritism and left the Agency vulnerable to accusations that
Maher and Maher received preferential treatment. Although 8(a) and task order
contracts are exempted from the FAR provisions of “full and open competition,” the
contracting officer’s actions violated sound procurement practices as well as the spirit of
Federal procurement and ethics laws and regulations.

Recommendation

   1. We recommend that the Assistant Secretary for Employment and Training
      ensure that all contracting personnel fully comply with, and promote, the spirit
      and letter of the Federal procurement and ethics laws and regulations, including,
      but not limited to, acting impartially and abstaining from the appearance of giving
      preferential treatment to any organization or individual.




                                                        ETA’s Contract with TCE Digital Solutions
                                             6                     Report No. 05-07-003-03-390
                                                  U.S. Department of Labor – Office of Inspector General


Agency Response

ETA agreed with Recommendation 1 and is mandating ethics training for all contracting
office staff and a refresher as necessary for all Contracting Officer Technical
Representatives. The Director, Office of Grants and Contracts Management, will
maintain the updated list of completers and require all new personnel to attend the
training.

OIG Conclusion

We consider Recommendation 1 resolved. This recommendation will be closed after
ETA’s planned corrective action has been implemented and the OIG has received
evidence of the implementation.


Objective 2 – Did ETA Violate the FAR by Approving a Task Order in Which
Substantially All of the Cost (and Related Work) was Passed Through the 8(a)
Contractor to the Subcontractor?
Fill in Finding for TOC here



Results – ETA did not violate the FAR by approving a task order in which substantially
all of the cost and related work was passed through the 8(a) contractor to a
subcontractor. While Federal regulations and the FAR require an 8(a) contractor to
complete at least 50 percent of the work on a contract with its own employees, this
requirement does not apply to each individual task order within the contract.

ETA’s contracting officer awarded TCE six task orders under the contract. TCE
subcontracted with Maher and Maher to perform the Workforce3 One Project task order
(Task Order Number 3), as detailed in Objective 1. Our review of this task order and
the corresponding invoices showed Maher and Maher performed all the work related to
the Workforce3 One Project task order and received 93 percent of the costs invoiced to
DOL for the related work. In addition, for this task order, TCE received an
administrative subcontractor fee on each invoice, averaging 7 percent, over and above
the labor hours and travel that were reimbursed to the subcontractor.

Federal Regulations place limitations on subcontracting in 13 CFR 125.6(a)(1) and
paraphrased in FAR 19.811-3(e):

             In the case of a contract for services (except construction), the concern1
             will perform at least 50 percent of the cost of the contract incurred for
             personnel with its own employees [underlining added for emphasis].




1
 “Concern” means any business entity organized for profit with a place of business located in the United
States or its outlying areas and that makes a significant contribution to the U.S. economy through
payment of taxes and/or use of American products, material and/or labor, etc.

                                                               ETA’s Contract with TCE Digital Solutions
                                                    7                     Report No. 05-07-003-03-390
                                                U.S. Department of Labor – Office of Inspector General




The regulations do not state that this provision applies on a task order basis. Therefore,
we found the complainant’s allegation to be without merit. However, we did determine
that ETA allowed the contractor to violate this regulatory requirement on a contract-wide
basis (See item 3 page 10).

Other Matters That Came to OIG’s Attention
Fill in Finding for TOC here



Results and Finding – As a result of our review of the ETA official contract file of the
TCE procurement action and interviews with SBA officials and ETA contracting officials,
we identified three violations of either SBA regulations or contract provisions:

      1. ETA had awarded contract modifications which in total caused the contract value
         to exceed the $3 million limit approved by SBA.

      2. The Statement of Work (SOW) contained in the awarded contract was broader
         than the SOW submitted to and approved by SBA.
      3. ETA approved task orders which in total did not require the 8(a) contractor to
         complete 50 percent of the work with its own employees.

We communicated initial information regarding these violations in an Alert Report
(Number 05-06-005-03-390), dated June 19, 2006. To prevent further violations from
occurring during completion of our audit work, we recommended, and the Assistant
Secretary for Employment and Training agreed, that additional pending contract
modifications and the option year of the contract not be exercised.

For purposes of completeness, the Alert Report issues are presented below.
Issues 1 and 2 are summarized below and remain unchanged from the information
reported in the Alert Report. Audit work completed subsequent to the Alert Report
provided a more complete understanding of Issue 3. The updated information and
additional recommendations are also presented below.

      1. Contract maximum exceeded:

             As stated in the Alert Report, the base year value of the TCE contract, through
             Modification No. 8, dated May 4, 2006, was $3,702,284. This amount was in
             excess of the SBA approval and in violation of SBA regulations at
             13 CFR 124.506(a) (ii), which limit all non-manufacturing 8(a) contracts to $3
             million, including options.

             We recommended that all pending contract modifications to TCE be stopped and
             that no additional funds or task orders be added to the contract. In addition,
             since the lifetime contract “not to exceed” maximum had, in fact, been exceeded
             in the base year, we recommended that the 1-year option not be exercised.



                                                             ETA’s Contract with TCE Digital Solutions
                                                  8                     Report No. 05-07-003-03-390
                                      U.S. Department of Labor – Office of Inspector General


  On June 28, 2006, the Assistant Secretary for Employment and Training
  responded to the Alert Report stating that ETA would cease all pending contract
  modifications to TCE with the exception of a no cost extension for a Job Corps
  task order. No additional funds or task orders would be added to the contract. In
  addition, the 1-year option would not be exercised. The Assistant Secretary
  further stated that ETA was reviewing all 8(a) contracts to ensure compliance
  with the SBA 8(a) regulations. ETA has requested permission from SBA to
  negotiate a new follow-on 8(a) contract with TCE.

  Because of ETA’s action, this recommendation is resolved and closed.

2. SOW changed after SBA approval:

  The SOW in the solicitation package that ETA submitted, and that SBA
  approved, was limited to tasks in the Job Corps program. However, the SOW
  contained in the contract awarded to TCE was less restrictive. Specifically, it
  allowed ETA to issue task orders for programs throughout ETA, including Job
  Corps (which was part of ETA at the time), Workforce Investment, Performance
  and Technology, and Foreign Labor Certification (See Exhibit 1). Further, there
  was no evidence that a copy of the signed contract was provided to the SBA.
  Failure to provide this documentation is a violation of 13 CFR 124.501(a), which
  requires a procuring activity to report all 8(a) contract awards, modifications, and
  options to SBA. The partnership agreement between SBA and DOL provides
  that failure to provide award documents to SBA could result in SBA’s suspension
  or rescission of the partnership agreement for ETA or all of DOL.

  The Assistant Secretary responded to the Alert Report stating that this omission
  was an oversight by procurement staff who neglected to notify SBA staff of the
  expanded scope of work. Further, the Assistant Secretary stated that ETA
  procurement staff have been advised to strictly adhere to the applicable SBA
  regulations, including contacting SBA immediately concerning changes made to
  previously approved SOWs, and forwarding copies of all executed 8(a) contracts
  and modifications to SBA in accordance with the SBA/DOL Partnership
  Agreement. Finally, the Assistant Secretary stated it had been emphasized to
  the staff that failure to adhere to the provisions of the Partnership Agreement
  could result in SBA’s suspension or rescission of the partnership agreement.

  Based on ETA’s efforts to correct this weakness, we consider this issue resolved
  and closed.

3. Work performance requirement not met:

  The Alert Report stated that through February 28, 2006, TCE had performed only
  25 percent of the work with its own staff (See Exhibit 2). This is contrary to SBA
  regulations at 13 CFR 125.6(a) (1), which requires an 8(a) contractor to perform



                                                   ETA’s Contract with TCE Digital Solutions
                                        9                     Report No. 05-07-003-03-390
                                     U.S. Department of Labor – Office of Inspector General


50 percent of the cost of the contract incurred for personnel with its own
employees:

       In the case of a contract for services (except construction), the
       concern will perform at least 50 percent of the cost of the contract
       incurred for personnel with its own employees.

The Assistant Secretary responded to the Alert Report indicating that this
occurrence was attributable to the over obligation of funds in the contract, as
noted in Item 1 above. She further responded that ETA will strictly adhere to
13 CFR 125.6.

During the audit, the contracting officer stated that the 50 percent requirement is
over the life of the contract, not to be determined at a specific point in time. The
contracting officer’s interpretation of this requirement is incorrect.
Section 124.510(c) (1) of 13 CFR requires that an 8(a) contractor demonstrate
compliance with this requirement semiannually:

       In order to ensure that the required percentage of costs on an
       indefinite quantity 8(a) award is performed by the Participant, the
       Participant must demonstrate semiannually that it has performed
       the required percentage to that date.

In addition, the contracting officer should have known, based on the task orders
that the 8(a) contractor did not intend to meet this requirement. Of the six task
orders contained in the subject contract to TCE, four of the six projected that all
work would be performed by a subcontractor, not TCE. We calculated the
cumulative percentage of work to be performed by TCE and found that, overall,
TCE expected to perform only 32 percent of the cost of the contract incurred for
personnel with its own employees (See Exhibit 3). The contracting officer should
have been monitoring the percentage of the work TCE planned to perform before
issuing each task order, as well as monitoring actual compliance with the
50 percent work performance requirement semiannually.

The current SBA/DOL Partnership Agreement includes the DOL responsibility to
ensure that all contracts comply with the work performance requirements of
FAR 19.811-3(e), which requires that the following clause (FAR 52.219-14) be
inserted in all contracts:
       (b) By submission of an offer and execution of a contract, the
       Offeror/Contractor agrees that in performance of the contract in the
       case of a contract for—
           (1) Services (except construction). At least 50 percent of the
           cost of contract performance incurred for personnel shall be
           expended for employees of the concern.




                                                  ETA’s Contract with TCE Digital Solutions
                                      10                     Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


       ETA’s lack of compliance with SBA regulations and FAR requirements could
       result in ETA, or all of DOL, losing privileges associated with the SBA/DOL
       Partnership Agreement. This would slow the procurement process when
       contracting with 8(a) concerns. Further, failure to give TCE the majority of the
       work in this contract is contrary to the purpose of the 8(a) BD program, since
       there was little effort to develop TCE with work experience to compete in future
       ETA procurements.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   2. establish procedures for contracting officers to monitor the percentage of work
      contractors perform with their own employees before issuing new task orders or
      modifying existing contracts for new work; and

   3. establish procedures for semiannually monitoring actual compliance with the
      50 percent work performance requirement.

Auditee Response

ETA agreed with Recommendations 2 and 3, and will establish procedures for
contracting officers to monitor the percentage of work contractors perform with their own
employees before issuing new task orders or modifying existing contracts for new work.
The procedures will include a provision for monitoring compliance with the 50 percent
work requirement semiannually. ETA also plans to undertake a thorough review of its
procurement and contract activities to identify changes and make improvements as
required.

OIG Conclusion

We consider Recommendations 2 and 3 resolved. These recommendations will be
closed after ETA’s planned corrective action has been implemented and the OIG has
received evidence of the implementation.




Elliot P. Lewis
May 7, 2007




                                                       ETA’s Contract with TCE Digital Solutions
                                           11                     Report No. 05-07-003-03-390
           U.S. Department of Labor – Office of Inspector General




Exhibits




                        ETA’s Contract with TCE Digital Solutions
            12                     Report No. 05-07-003-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                                Exhibit 1

                           Summary of Task Orders

Task Order No. 1:
Signed October 7, 2005
Scope of Work – Job Corps Students with Disabilities
Subcontractor – Humanitas
Period of Performance – July 1, 2005 – June 30, 2006

Task Order No. 2:
Signed October 26, 2005
Scope of Work – Skills to Build
Subcontractor – DTI
Period of Performance – October 26, 2005 – October 25, 2006

Task Order No. 3 (originally Task Order No. 4):
Signed November 30, 2005
Scope of Work – Workforce3 One
Subcontractor – Maher and Maher
Period of Performance – July 1, 2005 – June 30, 2006

Task Order No. 4 (originally Task Order No. 5):
Signed February 10, 2006
Scope of Work – Protech
Subcontractor – DTI
Period of Performance – February 10, 2006 – February 9, 2007

Task Order No. 5 (originally Task Order No. 6):
Signed March 9, 2006
Scope of Work – Prisoner Reentry
Subcontractor Identified as “ODC “
Period of Performance – March 1, 2006 – March 1, 2007

Task Order No. 6:
Signed May 4, 2006
Renumbered Task Order Nos. 4 through 6
Scope of Work – Foreign Labor Certification
No subcontractor
Period of Performance – October 17, 2005 through October 16, 2006




                                                   ETA’s Contract with TCE Digital Solutions
                                       13                     Report No. 05-07-003-03-390
                                                  U.S. Department of Labor – Office of Inspector General


                                                                                              Exhibit 2

               Percentage of Cost of the Contract Incurred for Personnel
                   Actually Performed by TCE on Each Task Order
                                 Per Invoice Billings
                       June 30, 2005 through February 28, 2006


                                                                                  Percentage
                                                                                 Performed by
                                 TCE        Subcontractors*         Total            TCE
        Task Order No. 1        $127,354            $91,415         $218,769            58.21%
        Task Order No. 2              $0          $705,714          $705,714             0.00%
        Task Order No. 3              $0          $269,537          $269,537             0.00%
        Task Order No. 6        $221,871                 $0         $221,871           100.00%
        Total                   $349,225        $1,066,6662        $1,415,891           24.66%




Note: No invoices were received for billings during this period for Task Order Numbers 4 and 5.




2
  Some subcontractor costs for wages and other expenses were not broken out on the invoices, therefore
total costs were used.

                                                               ETA’s Contract with TCE Digital Solutions
                                                   14                     Report No. 05-07-003-03-390
                                                   U.S. Department of Labor – Office of Inspector General


                                                                                               Exhibit 3

               Percentage of Cost of the Contract Incurred for Personnel
                               to be Performed by TCE
                                   Per Task Orders


                                               TCE         Subcontractors         Total
                Task Order No. 1
                Cost of Personnel             $145,651             $416,193      $561,844
                Percentage                     25.92%               74.08%       100.00%
                Task Order No. 2
                Cost of Personnel                   $0            $705,714      $705,714
                Percentage                      0.00%              100.00%       100.00%
                Cumulative Costs              $145,651           $1,121,907    $1,267,558
                Cumulative Percentage          11.49%               88.51%       100.00%
                Task Order No. 3
                Cost of Personnel                   $0            $608,968      $608,968
                Percentage                      0.00%              100.00%       100.00%
                Cumulative Costs              $145,651           $1,730,875    $1,876,526
                Cumulative Percentage           7.76%               92.24%       100.00%
                Task Order No. 4
                Cost of Personnel                   $0            $242,738      $242,738
                Percentage                      0.00%              100.00%       100.00%
                Cumulative Costs              $145,651           $1,973,613    $2,119,264
                Cumulative Percentage           6.87%               93.13%       100.00%
                Task Order No. 5
                Cost of Personnel                   $0              $71,234       $71,234
                Percentage                      0.00%              100.00%       100.00%
                Cumulative Costs              $145,651           $2,044,847    $2,190,498
                Cumulative Percentage           6.65%               93.35%       100.00%
                Task Order No. 6
                Cost of Personnel             $829,759                   $0     $829,759
                Percentage                    100.00%                0.00%       100.00%
                Cumulative Costs              $975,410           $2,044,847    $3,020,257
                Cumulative Percentage          32.30%               67.70%       100.00%




This Exhibit presents only the cost of personnel in each task order. The total amount of funds obligated is
$3,702,284.




                                                                ETA’s Contract with TCE Digital Solutions
                                                    15                     Report No. 05-07-003-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                          ETA’s Contract with TCE Digital Solutions
              16                     Report No. 05-07-003-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The 8(a) BD program is authorized under Section 8(a) of the Small Business Act and
provided for in SBA regulations at 13 CFR Parts 124 and 125. The purpose of the 8(a)
BD program is to assist eligible small disadvantaged business concerns to compete in
the American economy through business development.

SBA utilizes partnership agreements with Federal agencies to establish basic
procedures for expediting the award of requirements pursuant to Section 8(a) of the
Small Business Act and SBA’s regulations. DOL’s current partnership agreement with
SBA was signed September 15, 2005. This agreement places the responsibility to
comply with the Small Business Act, SBA’s regulations, and the FAR with the
contracting agency.

DOL’s policy is to provide maximum opportunities to small business in acquisitions.
DOL’s contracting officers are responsible for working with program officials to meet or
exceed DOL agencies’ small business procurement goals. Contracting officers must
conduct performance evaluations of an 8(a) contract throughout the contract period.
Any unresolved problems must be referred to and discussed with the appropriate SBA
official.

Department of Labor Manual Series (DLMS) 2, Section 814(a)(1)(a) delegates the
Assistant Secretary for Employment and Training, or an officer acting in that capacity,
authority and responsibility for obtaining all program property and services required to
fulfill the statutory and regulatory responsibilities imposed on the Assistant Secretary.
DLMS-2, Section 832 E(2) designates the Director, Office of Grants and Contract
Management (OGCM), as the Head of Contracting Activity for ETA. This official has
overall responsibility for managing the contracting activity. The contracting officers in
the Division of Contract Services report to the Director, OGCM.

On June 3, 2005, ETA’s Division of Contract Services forwarded a request to SBA for
approval of a requirement for a potential 8(a) contract with TCE. According to the
request, ETA contemplated a 12 month indefinite-quantity type contract with two 1-year
options at the discretion of the Government, not to exceed $3 million. SBA accepted
the requirement to “assist Job Corps in supporting students with disabilities in three
areas.” SBA authorized ETA to negotiate and contract with TCE directly, as specified in
the partnership agreement because it was determined that TCE had the requisite
capabilities to satisfactorily perform the work. On June 30, 2005, ETA awarded TCE an
indefinite-quantity type contract (No. DOL J051A20206) to perform various task orders
within ETA.

TCE, located in Camp Springs, Maryland, is an 8(a) firm specializing in organizational
and workforce development. Before receiving the June 2005 contract, TCE had no prior
ETA experience.



                                                        ETA’s Contract with TCE Digital Solutions
                                            17                     Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


TCE contracted with a variety of subcontractors under its DOL contract. One specific
company was Maher and Maher, located in Neptune, New Jersey, a small business firm
specializing in consulting, training and eLearning. The affiliation of the two companies
began when the OWI COTR contacted the contracting officer with a request to sustain
the Workforce3 One Project then being performed by Maher and Maher under a
cooperative agreement with CESR. The contracting officer recommended initiating a
subcontract arrangement with Maher and Maher using an existing 8(a) contract with
TCE. The contracting officer arranged a meeting for the purpose of introducing Maher
and Maher to TCE, the 8(a) contractor. The contracting officer thought this was a good
practice because it would develop the 8(a) contractor and expand the pool of qualified
small business concerns for ETA, one of the goals of the 8(a) BD program. TCE agreed
to accept a task order that would be subcontracted to Maher and Maher for the purpose
of the Workforce3 One Project.

Overall, Maher and Maher’s involvement with the Workforce3 One Project began under
the CESR cooperative agreement (through June 30, 2005) and continued under the
TCE contract (through June 30, 2006), and starting in July 2006, is now being
performed under Maher and Maher’s own partial small business set-aside contract
(No. DOL J061A20373), awarded by ETA on June 29, 2006.




                                                       ETA’s Contract with TCE Digital Solutions
                                           18                     Report No. 05-07-003-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of our performance audit was to determine the merits of two allegations
received through the OIG Complaint Analysis Office against ETA. The complaint
alleged contracting improprieties when using the Small Business Act Section 8(a) for
contract awards. Specifically, the allegations were:

   1. The Assistant Secretary for Employment and Training inappropriately directed
      the use of a specific company, Maher and Maher (a small business firm that is
      not 8(a) qualified), as a subcontractor on a task order to support the “Workforce3
      One” project.

   2. ETA violated the Federal Acquisition Regulation (FAR) by approving a task order
      in which substantially all of the cost (and related work) was passed through the
      8(a) contractor to the subcontractor.

Scope

Our audit scope included only Contract No. DOL J051A20206, awarded by ETA’s
Division of Contract Services to TCE. The contract covered the period June 30, 2005,
through June 30, 2006. To meet our objectives, we only tested certain controls in the
contracting processes used by the Division of Contract Services.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To determine the merits of the allegations, we interviewed DOL officials within ETA’s
Division of Contract Services, the OWI COTR who requested the continuation of the
Maher and Maher contract services, and a representative of the Office of Small
Business Programs. We also interviewed officials at SBA’s Washington Metropolitan
Area District Office, the President of TCE, and the President of Maher and Maher. We
reviewed pertinent Federal and DOL contracting regulations and policies, and reviewed
and analyzed pertinent documentation related to the award and management of the
TCE contract, including ETA’s official TCE contract file containing the contract, task
orders, and correspondence. Further, we performed a search of archived e-mails of the
Assistant Secretary, COTR, contracting officer, and other contracting staff and reviewed
pertinent documentation.


                                                       ETA’s Contract with TCE Digital Solutions
                                           19                     Report No. 05-07-003-03-390
                                           U.S. Department of Labor – Office of Inspector General


Our audit was conducted onsite at the ETA National Office and the SBA Washington
Metropolitan Area District Office. Our fieldwork began March 21, 2006, and ended
May 7, 2007.

Criteria

We used the following criteria to perform this audit:

       5 CFR Subpart 2635.101 – Standards of Ethical Conduct for Employees of the
          Executive Branch, General Provisions, Basic Obligation of Public Service
       13 CFR Part 124 – 8(a) Business Development/Small Disadvantaged Business
          Status Determinations
       13 CFR Part 125 – Government Contracting Programs
       FAR Part 3 – Improper Business Practices and Personal Conflicts of Interest,
          Subpart 3.1 – Safeguards
       FAR Subpart 16.5 – Indefinite-Delivery Contracts
       FAR Subpart 19.8 – Contracting with the Small Business Administration [The
          8(a) Program]
       48 CFR Chapter 29 (DOL Acquisition Regulations) Subpart 2903 – Improper
          Business Practices and Personal Conflicts of Interest
       48 CFR Chapter 29 (DOL Acquisition Regulations) Subpart 2919 – Small
          Business and Small Disadvantaged Business Concerns
       DLMS 2, Section 800, Grant and Procurement Management
       SBA/DOL Partnership Agreement dated September 15, 2005




                                                        ETA’s Contract with TCE Digital Solutions
                                            20                     Report No. 05-07-003-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations


BD         Business Development
CESR       Center for Employment Security and Research
CFR        Code of Federal Regulations
COTR       Contracting Officer’s Technical Representative
DLMS       Department of Labor Manual Series
DOL        U.S. Department of Labor
ETA        Employment and Training Administration
FAR        Federal Acquisition Regulation
OGCM       Office of Grants and Contract Management
OIG        Office of Inspector General
OWI        Office of Workforce Investment
SBA        Small Business Administration
TCE        The Creative Eye, doing business as TCE Digital Solutions




                                                   ETA’s Contract with TCE Digital Solutions
                                       21                     Report No. 05-07-003-03-390
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Agency Response to Draft Report




                                               ETA’s Contract with TCE Digital Solutions
                                   22                     Report No. 05-07-003-03-390
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                                                ETA’s Contract with TCE Digital Solutions
                                    23                     Report No. 05-07-003-03-390
